                                      SOCIAL SECURITY
MEMORANDUM

Date:   September 25, 2009                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Compliance with Certain Evidence Requirements
        that Restrict Noncitizens’ Eligibility for Title II Benefits (A-08-09-19108)


        The attached final report presents the results of our review. Our objective was to
        assess the Social Security Administration’s compliance with certain laws that restrict
        noncitizens’ eligibility for benefits under Title II of the Social Security Act.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION
 The Social Security Administration’s
  Compliance with Certain Evidence
Requirements that Restrict Noncitizens’
    Eligibility for Title II Benefits
             A-08-09-19108




             September 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
Our objective was to assess the Social Security Administration’s (SSA) compliance with
certain laws that restrict noncitizens’ eligibility for benefits under Title II of the Social
Security Act (Title II). 1

BACKGROUND
A number of Federal laws have established additional eligibility requirements that
noncitizens must meet before SSA processes their Title II benefit claims. For example,
Section 503 of the Illegal Immigration Reform and Immigrant Responsibility Act of 1996 2
(IIRIRA) prohibits SSA from awarding Social Security benefits to resident noncitizens
who are not lawfully present in the United States. In addition, Section 202(n)(1) of the
Social Security Act 3 generally prohibits SSA from awarding benefits to noncitizens who
the Department of Homeland Security (DHS) has deported unless DHS admitted them
as lawfully permanent residents after their removal.

Section 211 of the Social Security Protection Act of 2004 4 (SSPA) restricts SSA from
authorizing Social Security benefits to noncitizens who received an original Social
Security number (SSN) on or after January 1, 2004 unless they were issued an SSN for
work purposes or admitted into the United States as a nonimmigrant visitor for business
or alien crewman. The SSPA provision applies to the primary numberholder. However,
if a claimant does not meet the work-authorization requirement, dependents or survivors
applying for benefits under his/her SSN may not be eligible either. 5

The Ensign Amendment, incorporated into the Consolidated Appropriations Act of 2008
(Act), 6 prohibits funds appropriated in the Act from being


1
  Title II of the Social Security Act authorizes SSA to administer the Old-Age, Survivors, and Disability
Insurance program. Under this program, SSA pays Social Security benefits to qualified retired and
disabled workers, their dependents, and eligible survivors. Social Security Act § 201 et seq.,
42 U.S.C. § 401 et seq.
2
  Pub. L. No. 104-208, Division C § 503, 42 U.S.C. § 402(y). IIRIRA repeated the lawful presence
requirement of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996, but changed
the effective date from September 1 to December 1, 1996. Pub. L. No. 104-193 § 401, 8 U.S.C. § 1611.
3
    42 U.S.C. § 402(n)(1).
4
    Pub. L. No. 108-203 § 211, 42 U.S.C. §§ 414 and 423.
5
    SSA, Program Operations Manual System RS 00301.102 B.1.
6
    Pub. L. No. 110-161, Division G § 527, 121 Stat. 2212.

SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                              1
Eligibility for Title II Benefits (A-08-09-19108)
           “. . . expended or obligated by the Commissioner of Social Security for
           purposes of administering Social Security benefit payments under title II of
           the Social Security Act, to process claims for credit for quarters of
           coverage based on work performed under a social security account
           number that was not the claimant’s number which is an offense prohibited
           under section 208 of the Social Security Act.”

 The Ensign Amendment provisions superseded the SSPA provisions when SSA
 determined the claimant had an “intent to deceive”—that is, the claimant willingly and
 knowingly falsely used another’s SSN for work purposes. In 2009, Congress extended
 the Ensign Amendment’s 7 provisions through continuing resolution and passage of the
 Omnibus Appropriations Act of 2009. 8 However, the 2009 provision removed the “intent
 to deceive” condition and requires that the noncitizen be convicted under the Social
 Security Act 9 for certain SSN-related offenses.

 To accomplish our objective, we obtained an extract of 216,805 Title II applications
 noncitizens submitted to SSA in 2008. From this extract, we randomly selected 50 for
 review. Table 1 shows the number and type of noncitizen Title II applicants in our
 sample who were subject to the IIRIRA, SSPA, and Ensign Amendment provisions. We
 did not find any errors in SSA’s processing of the 50 cases we reviewed. As such, we
 did not review any additional cases.

           Table 1: Details of the 50 Noncitizen Title II Sample Records Reviewed
                                                                      Number of Noncitizen
                                                           Title II Applicants Who Were Subject to:
                                                                                           Ensign
     Noncitizen Applicant:
                                                            IIRIRA            SSPA       Amendment
   Primary Numberholder                                            30              3                31
   Dependent                                                        8              1                12
   Survivor                                                         7              0                 0
Total Number of Sample Applicants
Subject to Each Provision
                          10                                      45                   4                     43
Percent Processed Correctly                                    100%                 100%              100%

 Appendix B provides additional background, scope, and methodology.


 7
     SSA continues to refer to the 2009 legislation as the “Ensign Amendment.”
 8
     Pub. L. No. 111-8 § 522, 123 Stat. 806.
 9
     The Social Security Act §§ 208 (a)(6) or (7), 42 U.S.C. §§ 408(a)(6) or (7).
 10
    Based on the requirements of IIRIRA, SSPA, and Ensign Amendment, we determined that not all 50 of
 the noncitizen Title II applicants were subject to each law. As such, we determined 5 applicants were not
 subject to IIRIRA, 46 to SSPA, and 7 to the Ensign Amendment. However, some applicants were subject
 to the requirements of one or more laws.

 SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                          2
 Eligibility for Title II Benefits (A-08-09-19108)
                                                               Results of Review
Based on our limited review, SSA complied with the IIRIRA, SSPA, and Ensign
Amendment provisions restricting noncitizens’ eligibility for Title II benefits. To address
each provision and ensure only eligible noncitizens received Title II benefits, SSA
implemented numerous policies and procedures instructing field office personnel on
how to develop and meet the additional evidence requirements before processing their
benefit claims.

Illegal Immigration Reform and Immigrant Responsibility Act of 1996

SSA complied with IIRIRA’s lawful presence provision when processing noncitizens’
Title II benefit claims. SSA implemented policies and procedures that instructed field
office personnel on how to develop and confirm noncitizens’ lawful presence in the
United States. SSA also provided charts that illustrated each category of lawfully
present noncitizens, which included information on the documentary evidence required
to establish their lawful status. In addition, SSA instructed personnel to ensure the
DHS-issued documents noncitizens submitted were acceptable 11 and the class of
admission DHS noted on those documents agreed with the class shown in the charts.
Furthermore, SSA generally requires personnel to verify noncitizens’ immigration status
with DHS using the Systematic Alien Verification for Entitlements program. 12 Because
of the additional restriction placed on deported noncitizens, SSA instructed personnel to
query the SSA file that contains deportation data. 13 If personnel identify deportation
data, policy provides further instruction on how to determine whether deported
noncitizens meet IIRIRA’s lawful presence requirement.

Field office personnel followed SSA policies and procedures when developing and
confirming noncitizens’ lawful presence. Of the 50 noncitizen Title II applicants in our
sample, 45 (90 percent) were subject to IIRIRA’s lawful presence provision. 14 In all
cases, the documentation we reviewed indicated these noncitizens resided in the
United States and were lawfully admitted by DHS.


11
  SSA considers a DHS-issued document acceptable when it is the appropriate form for a particular
lawfully admitted status and appears authentic. In addition, current instructions state the DHS-issued
document must be unexpired, unless a prior period of immigration status must be proven.
12
  DHS provides and maintains the Systematic Alien Verification for Entitlements program for
benefit-granting agencies, such as SSA, to verify that alien applicants meet immigration status eligibility
requirements.
13
  The term “deportation” refers to a formal process where an order of removal is issued and a hearing is
held before an immigration judge. Generally, deportation or removal occurs when the order is carried out
and the noncitizen is physically expelled from the United States.
14
   The remaining noncitizen claimants did not reside in the United States. Because these noncitizen
Title II applicants were not U.S. residents, their benefit eligibility was not subject to the IIRIRA’s lawful
presence provision.

SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                                  3
Eligibility for Title II Benefits (A-08-09-19108)
Social Security Protection Act of 2004

SSA complied with SSPA’s work-authorization provision when processing noncitizens’
Title II benefit claims. SSA implemented policies and procedures that instructed field
office personnel on how to identify when noncitizen Title II applicants are subject to the
provision. When processing noncitizens’ Title II claims, SSA policy requires that
personnel review primary numberholders’ Numerical Identification (Numident) 15 files
and determine the date SSA assigned them an SSN. If SSA assigned the
numberholders’ SSNs on or after January 1, 2004, SSA policy requires that personnel
determine whether their Numidents displayed a work-authorized code. If the Numident
does not identify them as work-authorized, SSA policy requires that personnel verify the
primary numberholders’ current work-authorization with DHS. However, if the primary
numberholders are deceased, SSA policy instructs personnel to verify with DHS
whether they were work-authorized at time of death.

Field office personnel complied with SSA policies and procedures when determining
whether noncitizen Title II applicants were subject to, and met, the SSPA provision. Of
the 50 noncitizen Title II applicants, 4 (8 percent) received SSNs after January 1, 2004.
The documentation we reviewed indicated that only these four noncitizens were subject
to the SSPA provision. In all cases, we determined the primary numberholders were
work-authorized and assigned an SSN for work purposes.

Ensign Amendment

SSA complied with the Ensign Amendment provision when processing Title II claims
noncitizens submitted in 2008. SSA established policies and procedures that instructed
field office personnel on how to determine when the provision applied to noncitizens’
Title II claims. If SSA personnel discover the primary numberholder used another’s
SSN to work, policy instructs them to establish whether the noncitizen knowingly and
falsely used an erroneous SSN with the intent to deceive. If personnel determine there
was an intent to deceive, SSA policy further requires that they code the Title II
application as an Ensign case and disallow the claim. If personnel determine the
noncitizen did not use another’s SSN with an intent to deceive, SSA policy instructs
them to follow normal procedure to develop the claim. Since the 2009 revisions to the
Ensign Amendment, SSA has revised its policies and procedures.

Field office personnel complied with the Ensign Amendment provision. Because the
Ensign Amendment does not apply to survivor claims, only 43 (86 percent) of the
50 Title II applicants were subject to the provision. In all cases, the documentation we
reviewed did not reveal that the primary numberholders had worked under another’s
SSN.

15
   The Numident Master File houses, in SSN order, the identifying information for each numberholder.
This information may include the numberholder’s name, date of birth, place of birth, parents’ names,
citizenship status, date of death (if applicable), and the office where the SSN application was processed
and approved.


SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                              4
Eligibility for Title II Benefits (A-08-09-19108)
                                   Matters for Consideration
Because immigration reform is an evolving issue in American culture, SSA should
anticipate that new or revised laws may impact its programs. Based on our review of
the effective dates for the 2008 and 2009 Ensign Amendments and SSA policy, it
appears SSA did not implement or revise its policies and procedures until about
4 months after the Ensign Amendment became effective. Although we did not identify
any noncitizen Title II claims impacted by this late implementation, we believe timely
development and communication of new or amended procedures are crucial to SSA
program integrity. As such, we encourage the Agency to timely monitor pending
legislation and make changes to its policies and procedures as expeditiously as
feasible.




SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’           5
Eligibility for Title II Benefits (A-08-09-19108)
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope, and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’
Eligibility for Title II Benefits (A-08-09-19108)
                                                                          Appendix A

Acronyms

 Act                    Consolidated Appropriations Act of 2008
 DHS                    Department of Homeland Security
 Ensign Amendment Consolidated Appropriations Act of 2008;
                  Omnibus Appropriations Act of 2009
 GAO                    Government Accountability Office
 IIRIRA                 Illegal Immigration Reform and Immigrant Responsibility Act
                        of 1996
 Numident               Numerical Identification
 OIG                    Office of the Inspector General
 Pub. L. No.            Public Law Number
 SSA                    Social Security Administration
 SSN                    Social Security Number
 SSPA                   Social Security Protection Act of 2004
 Title II               Title II of the Social Security Act
 U.S.C.                 United States Code

Form
SS-5                    Application for a Social Security Card




SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’
Eligibility for Title II Benefits (A-08-09-19108)
                                                                                     Appendix B

Background, Scope, and Methodology
BACKGROUND

Title II of the Social Security Act authorizes the Social Security Administration (SSA) to
administer the Old-Age, Survivors and Disability Insurance program. 1 Under this
program, SSA pays benefits to qualified retired and disabled workers, their dependents,
and eligible survivors. These Social Security benefits are based on the worker’s
(primary numberholder’s) earnings, averaged over his or her lifetime.

A number of Federal laws limit noncitizens’ eligibility for Social Security benefits. We
primarily reviewed the following laws: Illegal Immigration Reform and Immigrant
Responsibility Act of 1996 (IIRIRA), 2 Social Security Protection Act of 2004 (SSPA), 3
and “Ensign Amendment,” which was incorporated into the Consolidated Appropriations
Act of 2008. 4 In 2009, Congress extended the Ensign Amendment’s 5 provisions
through continuing resolution and passage of the Omnibus Appropriations Act of 2009. 6

SCOPE

To determine whether SSA established and followed policies and procedures to comply
with the IIRIRA, SSPA, and Ensign Amendment provisions, we reviewed policies and
procedures in SSA’s Program Operations Manual System on processing noncitizen
Title II benefit claims. In addition, we obtained an extract of 216,805 Title II applications
noncitizens submitted to SSA in 2008. From this extract, we randomly selected
50 applications to review.




1
    The Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
  Pub. L. No. 104-208, Division C § 503, 42 U.S.C. § 402(y). The IIRIRA repeated the lawful presence
requirement of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996, but changed
the effective date from September 1 to December 1, 1996. Pub. L. No. 104-193 § 401, 8 U.S.C. § 1611.
3
    Pub. L. No. 108-203 § 211, 42 U.S.C. §§ 414 and 423.
4
    Pub. L. No. 110-161, Division G § 527, 121 Stat. 2212.
5
    SSA continues to refer to the language in the current legislation as the “Ensign Amendment.”
6
    Pub. L. No. 111-8 § 522, 123 Stat. 806.

SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                     B-1
Eligibility for Title II Benefits (A-08-09-19108)
METHODOLOGY

To accomplish our objective, we

•    reviewed applicable laws and regulations;

•    reviewed an audit report issued by the Government Accountability Office (GAO)
     regarding SSA’s compliance with SSPA; 7

•    reviewed the Numerical Identification (Numident) file 8 for each primary numberholder
     and scheduled original and replacement Social Security number (SSN) card data;

•    requested from SSA a microfiche copy of Form SS-5, Application for a Social
     Security Card, for all original and replacement SSN cards;

•    verified lawful presence of each Title II applicant with Department of Homeland
     Security (DHS), either by contacting a DHS representative or through use of its
     Systematic Alien Verification for Entitlements 9 or E-Verify programs; 10

•    queried SSA’s Disability, Railroad, Alien, and Military Service file for any deportation
     notices related to the sample applicants;

•    reviewed primary numberholders’ summary and detailed earnings queries for
     Tax Years 2006 through 2008;

•    reviewed SSA’s Earnings Modernization Item Correction System and Modernized
     Claims System to determine whether primary numberholders had claimed credit for
     past wages earned under another’s SSN; and

•    performed LexisNexis 11 searches for any reports of multiple SSN use by primary
     numberholders.

7
 GAO, Social Security Administration: Additional Actions Needed to Prevent Improper Benefit Payments
under Social Security Protection Act (GAO-06-196, April 2006).
8
  The Numident Master File houses, in SSN order, the identifying information for each numberholder.
This information may include the numberholder’s name, date of birth, place of birth, parents’ names,
citizenship status, date of death (if applicable), and the office where the SSN application was processed
and approved.
9
  DHS provides and maintains the Systematic Alien Verification for Entitlements program for
benefit-granting agencies, such as SSA, to verify that alien applicants meet immigration status eligibility
requirements.
10
  The E-Verify program is a DHS initiative supported by SSA that employers can voluntarily use to verify
employment eligibility for newly hired employees.
11
  LexisNexis is an on-line service that provides comprehensive information, such as legal, news,
business, and public records content.

SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                           B-2
Eligibility for Title II Benefits (A-08-09-19108)
Our review of internal controls was limited to gaining an understanding of the laws,
regulations, and policies that govern the additional evidence required when SSA
processes Title II claims for noncitizens. We primarily relied on SSA’s Master
Beneficiary Record 12 and found the data used in this report were sufficiently reliable to
meet our evaluation objective.

We performed our review in the Office of Audit in Birmingham, Alabama, in June and
July 2009. The SSA entities reviewed were the Offices of the Deputy Commissioner for
Operations and Retirement and Disability Policy. We conducted our review in
accordance with the President’s Council on Integrity and Efficiency’s 13 Quality
Standards for Inspections.




12
  The Master Beneficiary Record is the master payment file for the Retirement and Survivors and
Disability Insurance programs.
13
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008,
Pub. L. No. 110-409 § 7, 5 U.S.C. App. 3 § 11.

SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’                       B-3
Eligibility for Title II Benefits (A-08-09-19108)
                                                                          Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly Byrd, Director, Atlanta Audit Division

   Theresa Roberts, Audit Manager, Birmingham Office of Audit

Acknowledgments
In addition to those named above:

   Kathy Youngblood-Yawn, Senior Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-19108.




SSA’s Compliance with Certain Evidence Requirements that Restrict Noncitizens’
Eligibility for Title II Benefits (A-08-09-19108)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
